U.S. Department of                                                 The Inspector General           Office of Inspector General
Transportation                                                                                     Washington, D.C. 20590
Office of the Secretary
of Transportation




April 29, 2011



The Honorable Darrell Issa
Chairman, Committee on Oversight
 and Government Reform
United States House of Representatives
Washington, DC 20515

Dear Chairman Issa:

Thank you for your letter of April 7, 2011, requesting that the Department of
Transportation (DOT) Office of Inspector General (OIG) provide information on the
status of open audit recommendations. Specifically, you requested the following: (1)
the number of open OIG recommendations; (2) estimated cost savings associated with
open recommendations; (3) our three most important open recommendations; and (4)
the number of recommendations that have been implemented between
March 24, 2010, and the present.

As of April 13, 2011, we identified 425 open recommendations, which were included
in 136 audit reports. Of the 425 open recommendations, 42, which were included in
31 reports, carry an estimated monetary benefit or cost savings totaling
$2,050,879,865. 1 The enclosed document provides detailed information on these
42 recommendations.

To determine the three most significant open recommendations, we assessed whether
the recommendation would lead to significant safety improvements, financial
benefits, or increased economy or efficiency of the program audited. Using these
criteria, we identified the following as the three most important open
recommendations.



1
    Cost savings were based on questioned costs, unsupported costs, and funds put to better use.


Control No. 2011-024
                                                                                                                2


• Significant Safety Issue

   Component          Open Recommendation                                              OIG Report
   Federal Aviation   Expand operational error investigatory requirements to           Air Traffic Control:
   Administration     include more detailed information on factors—such as             Potential Fatigue Factors,
                      overtime, on-the-job training, and work schedule—that could      AV2009065, issued
                      create fatigue conditions to determine whether these factors     June 29, 2009
                      are a contributory cause to operational errors, the frequency
                      in which the factors are occurring, and whether or not the
                      existence of the factors indicate a systemic problem.


   Our June 2009 audit identified a number of controller fatigue factors that could
   contribute to the causes of operational errors—where controllers fail to maintain the
   required safe separation distance between two aircraft. These factors include work
   schedule, overtime, on-the-job training, staffing, traffic volume and complexity, and
   time on position. However, FAA does not require that all these factors be addressed
   on operational error investigative reports and does not accumulate data on these
   conditions to determine whether they contribute to operational errors. FAA concurred
   with our recommendation and stated that it would implement processes in fiscal year
   2010 to collect schedule data for each person associated with an operational error for
   at least a 14-day period leading up to the event. On March 3, 2011, FAA requested
   that the target action date to complete this recommendation be extended to June 21,
   2011. Part of the FAA extension request stated that the next version of the Air Traffic
   Safety Action Program report, which controllers can use to self-report operational
   errors, will contain detailed questions on fatigue conditions. This version is targeted
   for implementation by summer 2011.

• Significant Financial Benefit

   Component          Open Recommendation                                              OIG Report
   Office of the      Monitor the field offices’ quarterly inactive project reviews,   Quality Control Review of
   Secretary          particularly on stagnant projects, to ensure that inactive       Audited Consolidated
                      obligations are liquidated in a timely manner throughout the     Financial Statements for
                      year.                                                            Fiscal Years 2010 and
                                                                                       2009, QC2011021, issued
                                                                                       November 15, 2010


   Clifton Gunderson LLP, our independent financial statement auditor, recommended
   actions that will enable DOT to put unused funds for unneeded grant and procurement
   obligations to better use on other eligible projects and contracts. As of September 30,
   2010, these unused funds were estimated at more than $1.5 billion. Clifton
   Gunderson also recommended prompt action to ensure that obligations recorded in
   DOT’s financial records and reported in its financial statements are not materially
   misstated. DOT officials concurred with Clifton Gunderson’s findings and have


   Control No. 2011-024
                                                                                                             3


    agreed to prioritize reviews of outstanding obligations in fiscal year 2011, placing
    particular emphasis on timely project close-outs. We asked DOT to provide quarterly
    updates on actions taken to reduce unneeded obligations. We anticipate the first
    update will be provided shortly.

•   Significant Program Improvement

    Component          Open Recommendation                                            OIG Report
    National Highway For NHTSA’s Alcohol-Impaired Driving Safety Program,             Audit of National
    Traffic Safety   periodically assess the degree to which States have adopted      Highway Traffic Safety
    Administration   the recommended intermediate performance measures, the           Administration’s Alcohol-
                     results from the measures, and actions needed to assist states   Impaired Driving Highway
                     in fully implementing the use of the performance measures.       Traffic Safety Program,
                                                                                      MH2007036, issued
                                                                                      March 5, 2007


    Our 2007 audit of NHTSA’s Alcohol-Impaired Driving Safety Program
    recommended actions to improve measures for assessing the effectiveness of State
    grants for countering alcohol-impaired driving. In response, NHTSA agreed to (1)
    work with States to establish intermediate performance measures, (2) set up a process
    for States to report progress towards meeting the measures, and (3) assess the results
    and actions needed to assist States in fully implementing the use of the measures. In
    April 2011, NHTSA moved towards implementing our recommendations by
    identifying ways to improve the data collected from States on various safety
    programs, including alcohol-impaired driving. However, NHTSA still needs to take
    significant action to fulfill our most critical recommendation: to periodically assess
    the degree to which States are adopting recognized strategies for countering alcohol-
    impaired driving, such as the use of sobriety checkpoints and saturation patrols.
    NHTSA’s target completion date for this action is December 2011.

    Finally, between March 24, 2010, and April 13, 2011, we have closed
    404 recommendations from 188 audit reports.

    We continue to work closely with DOT officials to improve operations and maintain a
    long-standing record of excellence in delivering a world-class transportation system to
    our Nation.      We appreciate DOT’s responsiveness to our findings and
    recommendations and its commitment to prompt corrective actions when needed. We
    would especially like to note that the Deputy Secretary is actively engaged in working
    with DOT’s Operating Administrators to enhance awareness of and involvement in
    closing OIG recommendations.




    Control No. 2011-024
                                                                              4


If you have any questions or need further information, please contact me
at (202) 366-1959 or Nathan Richmond, Director and Counsel for Congressional and
External Affairs, at (202) 493-0422.

Sincerely,




Calvin L. Scovel III
Inspector General

Enclosure




Control No. 2011-024
                                                                                                                               Department of Transportation
                                                                                                                  Office of Inspector General Open Recommendations
                                                                                                                                   As of April 13, 2011

                                                       REPORT     DATE REPORT     OPERATING               DESCRIPTION OF                     QUESTIONED UNSUPPORTED     FUNDS PUT TO      TARGET
                 REPORT TITLE                          NUMBER        ISSUED     ADMINISTRATION           RECOMMENDATION                        COSTS       COSTS         BETTER USE     ACTION DATE                REMARKS
Oversight of Airport Revenue                          AV2003030     3/20/2003        FAA       We recommend that FAA verify the                                           $14,285,026    12/31/2011 Miami-Dade County has agreed to
                                                                                               current status of $40.9 million in                                                                   return $14 million in diverted funds to
                                                                                               potential revenue diversions that we                                                                 the Miami International Airport. After
                                                                                               identified during this review and, as                                                                an initial payment of $3 million, Miami-
                                                                                               necessary, seek recoveries of                                                                        Dade County will pay quarterly
                                                                                               $38,710,289 identified at Miami-Dade                                                                 payments of $564,251 over 5 fiscal
                                                                                               County.                                                                                              years, beginning October 1, 2006.
                                                                                                                                                                                                    FAA expects all funds to be returned
                                                                                                                                                                                                    by September 2011.
FAA's Air Traffic Controller Optimum Training         AV2010126     9/30/2010         FAA         We recommend that FAA determine (a)                                    $422,000,000     9/30/2011
Solution Program: Sound Contract Management                                                       if the existing contract mechanism can
Practices are Needed to Achieve Program                                                           be effectively modified to achieve
Outcomes                                                                                          ATCOTS program goals within the
                                                                                                  current estimate of $859 million or (b)
                                                                                                  update cost estimates and
                                                                                                  requirements for its training needs and
                                                                                                  develop criteria for determining whether
                                                                                                  the Agency should exercise options in
                                                                                                  the contract.

FAA's Air Traffic Controller Optimum Training         AV2010126     9/30/2010         FAA         We recommend that FAA develop                                          $11,900,000      9/30/2011
Solution Program: Sound Contract Management                                                       performance measures for award fees
Practices are Needed to Achieve Program                                                           that directly link Raytheon's
Outcomes                                                                                          performance to improvements in the
                                                                                                  controller training program and goals of
                                                                                                  the ATCOTS program.




FAA's Air Traffic Controller Optimum Training         AV2010126     9/30/2010         FAA         We recommend that FAA modify the                                       $10,700,000         TBD
Solution Program: Sound Contract Management                                                       contract to include incentive fees with
Practices are Needed to Achieve Program                                                           predetermined costs targets based on
Outcomes                                                                                          accurately defined requirements; if this
                                                                                                  is not feasible, then include
                                                                                                  performance measure(s) that provides
                                                                                                  an award fee for economical contract
                                                                                                  performance.
Single Audit - South Carolina Department of           QC2007055     7/18/2007         FTA         We recommend that FTA determine             $2,600,000                                  9/30/2013
Transportation                                                                                    the allowability of the Department's
                                                                                                  payments to the Authority, and recover
                                                                                                  $496,479 from the Department and/or
                                                                                                  the Authority, if applicable.



Audit of Federal Transit Administration's Oversight   MH2008058     7/9/2008          FTA         We recommend that PVTA disallow all                      $4,250,000                     6/30/2011
Of Pioneer Valley Transit Authority Electric Bus                                                  future costs claimed by ElectraStor,
Cooperative Agreement                                                                             and develop an action plan in
                                                                                                  coordination with the OIG to seek
                                                                                                  recovery of the $4.25 million in Federal
                                                                                                  Funds paid for the project.




ENCLOSURE                                                                                                                              Page 1 of 5
                                                                                                                          Department of Transportation
                                                                                                             Office of Inspector General Open Recommendations
                                                                                                                              As of April 13, 2011

                                                 REPORT     DATE REPORT     OPERATING                DESCRIPTION OF                      QUESTIONED UNSUPPORTED   FUNDS PUT TO       TARGET
                 REPORT TITLE                    NUMBER       ISSUED      ADMINISTRATION           RECOMMENDATION                          COSTS       COSTS       BETTER USE      ACTION DATE                REMARKS
Oversight of Design and Engineering Firm's      ZA2009033     2/5/2009        FHWA       We recommend that FHWA recover                   $4,400,000                                   TBD
Indirect Costs Claimed On Federal-Aid Grants                                             the $2.8 million in unallowable
                                                                                         executive compensation and $1.6
                                                                                         million in other unallowable indirect
                                                                                         charges.

Oversight of Design and Engineering Firm's      ZA2009033     2/5/2009         FHWA          We recommend that FHWA put                                            $30,200,000         TBD
Indirect Costs Claimed On Federal-Aid Grants                                                 approximately $30.2 million in future
                                                                                             Federal-aid funds to better use.

The Joint Program Office's Management of the    AV2009040     3/11/2009         RITA         We recommend that RITA coordinate                                     $36,400,000       6/30/2011   RITA agreed to deobligate
Intelligent Transportation Systems Program                                                   with FHWA to identify and review old                                                                $48,100,000.
Needs to be Improved                                                                         ITS contracts and agreements and de-
                                                                                             obligate nearly $20 million in unneeded
                                                                                             funds.
Monitoring of FY 2010 Financial Statements      QC2011021    11/15/2010         OST          Clifton Gunderson recommended that                                   $1,500,000,000     9/30/2011   OST will provide a quarterly update on
                                                                                             DOT management monitor the field                                                                    actions taken in early May.
                                                                                             offices, quarterly inactive project
                                                                                             reviews, particularly on stagnant
                                                                                             projects, to ensure that inactive
                                                                                             obligations are liquidated in a timely
                                                                                             manner throughout the year.
Single Audit - City of Bogalusa, Louisiana      SA2011004    10/14/2010         FAA          We recommend that FAA ensure the               $366,808                                   TBD
                                                                                             City abides by Cash Management
                                                                                             requirements and recover $366,808
                                                                                             from the City if applicable.


Single Audit - City of Bogalusa, Louisiana      SA2011004    10/14/2010         FAA          We recommend that FAA ensure the              $1,616,781                                  TBD
                                                                                             City abides by Cash Management
                                                                                             requirements and recover $1,616,781
                                                                                             from the City if applicable.
Single Audit - Baxter County, Arkansas          SA2011020    11/12/2010         FAA          We recommend that FAA determine                $870,287                                 5/1/2011
                                                                                             the allowability of the labor costs and
                                                                                             recover $870,287 related to fiscal year
                                                                                             2006.

Single Audit - Baxter County, Arkansas          SA2011020    12/10/2010         FAA          We recommend that FAA determine                $224,494                                 5/1/2011
                                                                                             the allowability of the labor costs and
                                                                                             recover $224,494 related to fiscal year
                                                                                             2007.


Single Audit - Federated States of Micronesia   SA2010115     9/21/2010         FAA          We recommend that FAA determine                $252,411                                   TBD
Government                                                                                   the allowability of the contract
                                                                                             payments and recover $252,411 from
                                                                                             the Micronesia National Government, if
                                                                                             applicable.




ENCLOSURE                                                                                                                            Page 2 of 5
                                                                                                                        Department of Transportation
                                                                                                           Office of Inspector General Open Recommendations
                                                                                                                            As of April 13, 2011

                                                REPORT     DATE REPORT     OPERATING             DESCRIPTION OF                       QUESTIONED UNSUPPORTED   FUNDS PUT TO     TARGET
                 REPORT TITLE                   NUMBER        ISSUED     ADMINISTRATION        RECOMMENDATION                            COSTS      COSTS       BETTER USE    ACTION DATE   REMARKS
Single Audit - Republic of Palau National      SA2011028     1/12/2011        FAA       We recommend that FAA recover                   $339,548                                  TBD
Government                                                                              $339,548 from the Republic of Palau.




Single Audit - American Road Transportation    SA2010107     8/30/2010        FHWA         We recommend that FHWA ensure the              $90,760                              10/31/2011
Builders Association                                                                       Association maintains timesheets and
                                                                                           summaries for all employees to support
                                                                                           actual time charges, and recover
                                                                                           $90,760 from the Association, if
                                                                                           applicable.
Single Audit - American Association of Motor   SA2010106     8/30/2010        FMCSA        We recommend that FMCSA recover                $16,115                                 TBD
Vehicle Administrators and Affiliates                                                      $16,115 from the Association.
Single Audit - Commonwealth of Pennsylvania    SA2010114     9/21/2010        FMCSA        We recommend that FMCSA                        $15,519                                 TBD
                                                                                           determine the allowability of the unused
                                                                                           leave payouts and recover $15,519
                                                                                           from the Commonwealth, if applicable.

Single Audit - City of Rome, New York          SA2010020    11/16/2009         FTA         We recommend that FTA recover                 $800,000                              6/30/2011
                                                                                           $800,000 from the City of Rome.
Single Audit - City of Roanoke, Virginia       SA2010078     7/22/2010         FTA         We recommend that FTA ensure the              $543,307                               6/30/2011
                                                                                           City abides by Federal and City
                                                                                           procurement requirements and recover
                                                                                           $543,307 from the City if applicable.

Single Audit - Wilkes-Barre, Pennsylvania      SA2010108     9/1/2010          FTA         We recommend that FTA recover                 $448,000                               4/29/2011
                                                                                           $448,000 from the City.
Single Audit - City of Petersburg, Virginia    SA2011018    11/12/2010         FTA         We recommend that FTA ensure the             $1,500,000                              5/12/2011
                                                                                           City prepares time certifications in
                                                                                           accordance with OMB Circular A-87,
                                                                                           and recover $1,500,000 from the City.

Single Audit - State of North Carolina         SA2010074     7/22/2010         FTA         We recommend that FTA determine               $206,564                               6/1/2011
                                                                                           the allowability of the subrecipient
                                                                                           payment and recover $206,564 from
                                                                                           the State if applicable.

Single Audit - Miami-Dade County Transit       SA2010087     7/27/2010         FTA         We recommend that FTA ensure the              $528,217                               6/30/2011
Department                                                                                 County complies with Buy America
                                                                                           provisions, and recover $528,217 from
                                                                                           the County if applicable.

Single Audit - State of Georgia                SA2010090     7/29/2010         FTA         We recommend that FTA ensure that              $40,382                               6/30/2011
                                                                                           the State complies with allowable
                                                                                           costs/cost principles requirements and
                                                                                           recover $40,382 from the State, if
                                                                                           applicable.




ENCLOSURE                                                                                                                         Page 3 of 5
                                                                                                                            Department of Transportation
                                                                                                               Office of Inspector General Open Recommendations
                                                                                                                                As of April 13, 2011

                                                     REPORT     DATE REPORT     OPERATING             DESCRIPTION OF                       QUESTIONED UNSUPPORTED   FUNDS PUT TO     TARGET
                 REPORT TITLE                        NUMBER        ISSUED     ADMINISTRATION         RECOMMENDATION                          COSTS       COSTS       BETTER USE    ACTION DATE   REMARKS
Single Audit - Puerto Rico Metropolitan Bus         SA2010105     8/30/2010        FTA       We recommend that FTA recover                  $1,799,744                               6/30/2011
Authority                                                                                    $1,799,744 from the Authority.


Single Audit - Puerto Rico Metropolitan Bus         SA2010105     8/30/2010         FTA        We recommend that FTA determine              $452,294                                 6/30/2011
Authority                                                                                      the allowability of the prior year
                                                                                               expenditures and recover $452,294
                                                                                               from the Authority, if applicable.

Single Audit - Puerto Rico Metropolitan Bus         SA2010105     8/30/2010         FTA        We recommend that FTA ensure the             $207,963                                 6/30/2011
Authority                                                                                      Authority implements procedures to
                                                                                               submit requests for reimbursements
                                                                                               for expenditures incurred during the
                                                                                               period of availability and recover
                                                                                               $207,963 from the Authority.
Single Audit - San Joaquin Regional Rail            SA2010085     7/22/2010         FTA        We recommend that FTA determine              $674,015                                 4/30/2011
Commission                                                                                     the allowability of the Commission's
                                                                                               use of track improvement funds, and
                                                                                               recover $674,015 from the
                                                                                               Commission.
Single Audi - San Joaquin Region Rail               SA2010085     7/22/2010         FTA        We recommend that FTA determine              $402,774                                 4/30/2011
Commission                                                                                     the allowability of the Commission's
                                                                                               use of track improvement funds, and
                                                                                               recover $402,774 from the
                                                                                               Commission.

Single Audi - San Joaquin Region Rail               SA2010085     7/22/2010         FTA        We recommend that FTA ensure the             $558,362                                 4/30/2011
Commission                                                                                     Commission review requests for
                                                                                               reimbursement for eligibility before they
                                                                                               are submitted and recover the
                                                                                               unallowable costs of $558,362 from the
                                                                                               Commission.
Single Audit - South Tahoe Area Transit Authority   SA2010118     9/27/2010         FTA        We recommend that FTA ensure that             $84,800                                 6/27/2011
                                                                                               the Authority obtains title to the buses
                                                                                               or recover $84,800 from the Authority.




Single Audit - South Tahoe Area Transit Authority   SA2010118     9/27/2010         FTA        We recommend that FTA ensure that            $208,700                                 6/27/2011
                                                                                               the Authority obtain approval of the
                                                                                               hourly reimbursement rate and recover
                                                                                               $208,700 from the Authority if
                                                                                               applicable.


Single Audit - Yuma Metropolitan Planning           SA2010123     9/27/2010         FTA        We recommend that FTA ensure the              $11,948                                 6/27/2011
Organization                                                                                   Organization complies with various
                                                                                               Federal reporting requirements, and
                                                                                               recover $11,948 from the Organization,
                                                                                               if applicable.




ENCLOSURE                                                                                                                            Page 4 of 5
                                                                                                                         Department of Transportation
                                                                                                            Office of Inspector General Open Recommendations
                                                                                                                             As of April 13, 2011

                                                REPORT     DATE REPORT     OPERATING              DESCRIPTION OF                      QUESTIONED UNSUPPORTED       FUNDS PUT TO       TARGET
                  REPORT TITLE                  NUMBER        ISSUED     ADMINISTRATION          RECOMMENDATION                          COSTS      COSTS           BETTER USE      ACTION DATE   REMARKS
Single Audit - City of Tulsa, Oklahoma         SA2011066     3/23/2011        FTA       We recommend that FTA determine                 $684,708                                      9/23/2011
                                                                                        the allowability of the bus purchase,
                                                                                        and recover $684,708 from the City's
                                                                                        Transit Authority, if applicable.



Single Audit - Texoma Council of Governments   SA2011003    10/14/2010         FTA         We recommend that FTA ensure the              $49,263                                        TBD
                                                                                           Council establishes internal controls to
                                                                                           not exceed the Federal allowable limit,
                                                                                           and recover $49,263 from the Council,
                                                                                           if applicable.


Single Audit - The City of Oklahoma City,      SA2011039     2/14/2011         FTA         We recommend that FTA ensure the             $327,020                                      9/14/2011
Oklahoma                                                                                   City implement procedures to ensure
                                                                                           that expenditures are recorded in the
                                                                                           correct fiscal year; determine the
                                                                                           allowability of the prior year costs and
                                                                                           recover $327,020 from the City, if
                                                                                           applicable.
Single Audit - City of Wichita, Kansas         SA2010099     8/26/2010         FTA         We recommend that FTA ensure the              $31,124                                      6/30/2011
                                                                                           City reviews its procedures for
                                                                                           subrecipient monitoring, and recover
                                                                                           $31,124 from the City, if applicable.

Single Audit - State of Washington             SA2010084     7/22/2010         FTA         We recommend that FTA recover                $740,889                                      5/30/2011
                                                                                           $740,889 from the State.



Single Audit - Snoqualmie Indian Tribe         SA2010120     9/27/2010         FTA         We recommend that FTA ensure the              $29,540                                      9/27/2011
                                                                                           Tribe maintains supporting
                                                                                           documentation for all costs charged to
                                                                                           FTA grants and recover $29,540 from
                                                                                           the Tribe.

Single Audit - Snoqualmie Indian Tribe         SA2010120     9/27/2010         FTA         We recommend that FTA ensure the              $22,502                                      9/27/2011
                                                                                           Tribe implements policies and
                                                                                           procedures that will require employees'
                                                                                           time charges to be based on actual
                                                                                           time and effort, and recover $22,502
                                                                                           from the Tribe.
                                                                                  TOTAL                                               $21,144,839     $4,250,000   $2,025,485,026
                                                                                                                                                                                    Grand Total     $2,050,879,865




ENCLOSURE                                                                                                                        Page 5 of 5
